                              SOCIAL SECURITY
                                  Office of the Inspector General


                                       November 7, 2011




The Honorable Michael J. Astrue
Commissioner


The Chief Financial Officers Act of 1990 (CFO) (P.L. 101-576), as amended, requires that the
Social Security Administration’s (SSA) Inspector General (IG) or an independent external
auditor, as determined by the IG, audit SSA's financial statements in accordance with applicable
standards. Under a contract monitored by the Office of the Inspector General (OIG), Grant
Thornton, LLP, an independent certified public accounting firm, audited SSA's Fiscal Year (FY)
2011 financial statements. Grant Thornton also audited the FY 2010 financial statements,
presented in SSA’s FY 2011 Performance and Accountability Report for comparative purposes.
This letter transmits the Grant Thornton Independent Auditor’s Report on the audit of SSA’s
FY 2011 financial statements. Grant Thornton's Report includes the following:

   •   Opinion on Financial Statements;
   •   Report on Management's Assertion About the Effectiveness of Internal Control; and
   •   Report on Compliance and Other Matters.

Objective of a Financial Statement Audit

The objective of a financial statement audit is to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by management
as well as evaluating the overall financial statement presentation.

Grant Thornton conducted its audit in accordance with auditing standards generally accepted in
the United States; Government Auditing Standards issued by the Comptroller General of the
United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements. The audit included obtaining an understanding
of the internal control, testing and evaluating the design and operating effectiveness of the
internal control, and performing such other procedures as considered necessary under the
circumstances. Because of inherent limitations in any internal control, misstatements due to
error or fraud may occur and not be detected. The risk of fraud is inherent to many of SSA’s




            SOCIAL SECURITY ADMINISTRATION                BALTIMORE, MD 21235-0001
Page 2 – The Commissioner


programs and operations, especially within the Supplemental Security Income program. In our
opinion, people outside the organization perpetrate most of the fraud against SSA.

Audit of Financial Statements, Effectiveness of Internal Control, and Compliance with
Laws and Regulations

Grant Thornton issued an unqualified opinion on SSA’s FY 2011 and 2010 financial statements.
Grant Thornton also reported that SSA had effective internal control over financial reporting
based on criteria under OMB Circular A-123, Management’s Responsibility for Internal Control,
and SSA’s financial management systems substantially complied with the requirements of the
Federal Financial Management Improvement Act of 1996.

However, Grant Thornton did identify three deficiencies in internal control that, when
aggregated, are considered to be a significant deficiency related to a weakness in controls over
information security. Specifically, Grant Thornton’s testing:

   1. Disclosed that policies and procedures to periodically reassess the content of security
      access profiles had not been complied with consistently throughout the Agency.
   2. Disclosed evidence that security permissions provided to some employees and
      contractors exceeded access required to complete their job responsibilities.
   3. Identified configurations that increased the risk of unauthorized access to key financial
      data and programs during our testing of various operating systems.

Grant Thornton identified no reportable instances of noncompliance with the laws, regulations,
or other matters tested.

OIG Evaluation of Grant Thornton Audit Performance

To fulfill our responsibilities under the CFO Act and related legislation for ensuring the quality
of the audit work performed, we monitored Grant Thornton’s audit of SSA's FY 2011 financial
statements by
   •   reviewing Grant Thornton’s audit approach and planning;
   •   evaluating its auditors qualifications and independence;
   •   monitoring the progress of the audit at key points;
   •   examining its workpapers related to planning the audit, assessing SSA's internal control,
       and substantive testing;
   •   reviewing Grant Thornton’s audit report to ensure compliance with Government Auditing
       Standards and OMB Bulletin No. 07-04;
   •   coordinating the issuance of the audit report; and
   •   performing other procedures we deemed necessary.
Page 3 – The Commissioner


Grant Thornton is responsible for the attached auditor’s report, dated November 7, 2011, and the
opinions and conclusions expressed therein. The OIG is responsible for technical and
administrative oversight regarding Grant Thornton’s performance under the terms of the
contract. Our review, as differentiated from an audit in accordance with applicable auditing
standards, was not intended to enable us to express, and accordingly we do not express, an
opinion on SSA’s financial statements, management’s assertions about the effectiveness of its
internal control over financial reporting, or SSA’s compliance with certain laws and regulations.
However, our monitoring review, as qualified above, disclosed no instances where Grant
Thornton did not comply with applicable auditing standards.




                                             Patrick P. O’Carroll, Jr.
                                             Inspector General

Enclosure
                                                                                                         Enclosure
                                                                                                        Page 1 of 5




                                                                                                   Audit  Tax  Advisory
                                                                                                   Grant Thornton LLP
                                                                                                   333 John Carlyle Street, Suite 500
                                                                                                   Alexandria, VA 22314-5745
                                                                                                   T 703.837.4400
                                                                                                   F 703.837.4455
                                                                                                   www.GrantThornton.com
The Honorable Michael J. Astrue
Commissioner
Social Security Administration


                                                       Independent Auditor’s Report

In our audit of the Social Security Administration (SSA), we found:

                 •        The consolidated balance sheets of SSA as of September 30, 2011 and 2010, and the
                          related consolidated statements of net cost and changes in net position, and the
                          combined statements of budgetary resources for the years then ended, and the
                          statements of social insurance as of January 1, 2011 and January 1, 2010 and
                          statement of changes in social insurance amounts for the period January 1, 2010 to
                          January 1, 2011 are presented fairly, in all material respects, in conformity with
                          accounting principles generally accepted in the United States of America;

                 •        Management fairly stated that SSA’s internal control over financial reporting was
                          operating effectively as of September 30, 2011;

                 •        No reportable instances of noncompliance with laws, regulations, or other matters
                          tested.
OPINION ON FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheets of SSA as of September 30,
2011 and 2010, and the related consolidated statements of net cost and changes in net position,
and the combined statements of budgetary resources for the years then ended, and the statements
of social insurance as of January 1, 2011 and January 1, 2010 and statement of changes in social
insurance amounts for the period January 1, 2010 to January 1, 2011. These financial statements
are the responsibility of SSA’s management. Our responsibility is to express an opinion on these
financial statements based on our audits. The statements of social insurance as of January 1,
2009, 2008, and 2007 were audited by other auditors whose reports dated November 9, 2009 and
November 7, 2008 expressed an unqualified opinion on those statements.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America established by the American Institute of Certified Public Accountants
(AICPA); the standards applicable to financial audits contained in Government Auditing


Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
                                                                                           Enclosure
                                                                                          Page 2 of 5

Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.
Those standards require that we plan and perform the audit to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the financial statements. An
audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above and presented on pages 100 through
132 of this Performance and Accountability Report (PAR), present fairly, in all material respects,
the financial position of SSA as of September 30, 2011 and 2010, and its net cost of operations,
changes in net position, and budgetary resources for the years then ended, and the financial
condition of its social insurance program as of January 1, 2011 and January 1, 2010 and changes
in social insurance amounts for the period January 1, 2010 to January 1, 2011, in conformity with
accounting principles generally accepted in the United States of America.

As discussed in Note 17 to the financial statements, the statements of social insurance present the
actuarial present value of the SSA's estimated future income to be received from or on behalf of
the participants and estimated future expenditures to be paid to or on behalf of participants during
a projection period sufficient to illustrate long-term sustainability of the social insurance
program. In preparing the statement of social insurance, management considers and selects
assumptions and data that it believes provide a reasonable basis for the assertions in the
statements. However, because of the large number of factors that affect the statement of social
insurance and the fact that future events and circumstances cannot be known with certainty, there
will be differences between the estimates in the statement of social insurance and the actual
results, and those differences may be material.

OPINION ON MANAGEMENT’S ASSERTION ABOUT THE EFFECTIVENESS OF
INTERNAL CONTROL
We have also audited management’s assertion, included in the accompanying Federal Managers’
Financial Integrity Act of 1982 (FMFIA) Assurance Statement on page 43 of this PAR, that
SSA’s internal control over financial reporting was operating effectively as of September 30,
2011, based on criteria established under OMB Circular A-123, Management’s Responsibility for
Internal Control. We did not test all internal controls, relevant to the operating objectives
broadly, defined by FMFIA. SSA’s management is responsible for maintaining effective internal
control over financial reporting and for its assertion of the operating effectiveness of internal
control over financial reporting. Our responsibility is to express an opinion on management’s
assertion based on our audit.

We conducted our audit in accordance with attestation standards established by the AICPA; the
standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and OMB Bulletin No. 07-04. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether effective
internal control over financial reporting was maintained in all material respects. Our audit
included obtaining an understanding of internal control over financial reporting, assessing the
risk that a material weakness exists, testing and evaluating the design and operating effectiveness


Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
                                                                                              Enclosure
                                                                                             Page 3 of 5

of internal control based on the assessed risk, and performing such other procedures as we
considered necessary in the circumstances. We believe that our audit provides a reasonable basis
for our opinion.

An agency’s internal control over financial reporting is a process affected by those charged with
governance, management, and other personnel, designed to provide reasonable assurance
regarding the preparation of reliable financial statements in accordance with generally accepted
accounting principles. An agency’s internal control over financial reporting includes those
policies and procedures that ( 1 ) pertain to the maintenance of records that, in reasonable detail,
accurately and fairly reflect the transactions and dispositions of the assets of the agency; ( 2 )
provide reasonable assurance that transactions are recorded as necessary to permit preparation of
financial statements in accordance with generally accepted accounting principles, and that
receipts and expenditures of the agency are being made only in accordance with authorizations of
management and those charged with governance; and ( 3 ) provide reasonable assurance
regarding prevention, or timely detection and correction of unauthorized acquisition, use, or
disposition of the agency’s assets that could have a material effect on the financial statements.

Because of its inherent limitations, internal control over financial reporting may not prevent, or
detect and correct misstatements. Also, projections of any evaluation of effectiveness to future
periods are subject to the risk that controls may become inadequate because of changes in
conditions, or that the degree of compliance with the policies or procedures may deteriorate.

In our opinion, management’s assertion that SSA’s internal control over financial reporting was
operating effectively as of September 30, 2011 is fairly stated, in all material respects, based on
criteria established under OMB Circular A-123.

Other Internal Control Matters
Our audits identified the need to improve certain internal controls, as described below and in a
separate, limited-distribution management letter. A deficiency in internal control over financial
reporting exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and
correct misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control over financial reporting, such that there is a reasonable possibility
that a material misstatement of the agency’s financial statements will not be prevented, or
detected and corrected on a timely basis. No material weaknesses were identified.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control over
financial reporting that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance. Our audit was not designed to identify all
deficiencies in internal control over financial reporting that might be significant deficiencies. We
identified certain deficiencies in internal control that when aggregated are considered to be a
significant deficiency, reported below.

Significant Deficiency - Weakness in Controls Over Information Security
Our testing disclosed that policies and procedures to periodically reassess the content of security
access profiles had been developed but not implemented consistently throughout the Agency.


Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
                                                                                          Enclosure
                                                                                         Page 4 of 5

Our testing also disclosed evidence that security permissions provided to some employees and
contractors were in excess of access required to complete their job responsibilities. Additionally,
we identified configurations that increased the risk of unauthorized access to key financial data
and programs during our testing of the operating systems and internal network.

Specific disclosure of detailed information about these exposures might further compromise
controls and are therefore not provided within this report. Rather, the specific details of
weaknesses noted are presented in a separate, limited-distribution management letter.

Recommendations
We recommend that SSA management improve policies and procedures that require a periodic
review of the content of all security profiles. Management should enforce a consistent approach
for profile review and should retain auditable artifacts to evidence the completion of these
reviews.

We recommend that management improve controls to test and monitor configurations on the
mainframe and network operating system environments to identify and address inherent security
risks. This should include comprehensive procedures to test new software and updates to
existing software prior to implementation. Management should also improve procedures that
require on-going monitoring of implemented configurations to identify and address security risks.

More specific recommendations focused on the individual exposures we identified are included
in a separate limited-distribution management letter.

REPORT ON COMPLIANCE AND OTHER MATTERS
The management of SSA is responsible for compliance with laws and regulations. As part of
obtaining reasonable assurance about whether the basic financial statements are free of material
misstatement, we performed tests of compliance with laws and regulations, including laws
governing the use of budgetary authority, government-wide policies and laws identified in
Appendix E of OMB Bulletin No. 07-04, and other laws and regulations, noncompliance with
which could have a direct and material effect on the financial statements. Under the Federal
Financial Management Improvement Act of 1996 (FFMIA), we are required to report whether
SSA’s financial management systems substantially comply with the Federal financial
management systems requirements, applicable Federal accounting standards, and the United
States Government Standard General Ledger at the transaction level. To meet this requirement,
we performed tests of compliance with FFMIA section 803(a) requirements.

We did not test compliance with all laws and regulations applicable to SSA. We limited our tests
of compliance to the provisions of laws and regulations cited in the preceding paragraph of this
report. Providing an opinion on compliance with those provisions was not an objective of our
audit and, accordingly, we do not express such an opinion.

The results of our test of compliance disclosed no instances of noncompliance with laws and
regulations or other matters that are required to be reported under Government Auditing
Standards or OMB Bulletin No. 07-04 and no instances of substantial noncompliance that
required to be reported under FFMIA.


Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
                                                                                           Enclosure
                                                                                          Page 5 of 5

OTHER INFORMATION
The Management’s Discussion and Analysis (MD&A) included on pages 5 through 46 and the
Required Supplementary Information (RSI) included on pages 138 through 150 of this PAR are
not a required part of the basic financial statements but are supplementary information required
by the Federal Accounting Standards Advisory Board and OMB Circular A-136, Financial
Reporting Requirements. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation
of the MD&A and RSI. However, we did not audit the information and express no opinion on it.

Our audit was conducted for the purpose of forming an opinion on the basic financial statements
taken as a whole. The Schedule of Budgetary Resources included on page 137 of this PAR is
supplementary information required by OMB Circular No. A-136, Financial Reporting
Requirements. This schedule and the consolidating and combining information included on pages
133 to 136 of this PAR are not a required part of the basic financial statements. Such information
has been subjected to the auditing procedures applied in the audit of the basic financial
statements and, in our opinion, is fairly stated in all material respects in relation to the basic
financial statements taken as a whole.

The Commissioner’s Message on page 1 and the other accompanying information included on
pages 2 through 4, 47 through 99 and 161 to the end of this PAR, is presented for purposes of
additional analysis and is not a required part of the basic financial statements. Such information
has not been subjected to the auditing procedures applied in the audit of the basic financial
statements, and accordingly, we express no opinion on it.

Our report is intended solely for the information and use of management of SSA, the Office of
the Inspector General, the OMB, the Government Accountability Office, and Congress and is not
intended to be and should not be used by anyone other than these specified parties.




Alexandria, Virginia
November 7, 2011




Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
